BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of
Protect the First Foundation as Amicus Curiae
Supporting Petitioner in 21-5592, John H. Ramirez v.
Bryan Collier, Executive Director, Texas Department of
Criminal Justice, et al., were sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 27th day of September, 2021:
Seth Kretzer
Law Office of Seth Kretzer
9119 South Gessner
Suite 105
Houston, TX 77054
(713) 775-3050
seth@kretzerfirm.com
Counsel for Petitioner
Judd Edward Stone II
Jennifer Wren Morris
Texas Attorney General's Office
300 W. 15th St.
Austin, TX 78701
(512) 936-1700
judd. stone@oag. texas. gov
jennifer.morris@oag.texas.gov
Counsel for Respondents

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Gene C. Schaerr
Counsel of Record
Schaerr I Jaffe LLP
1717 K Street, NW, Suite 900
Washington, DC 20006
(202) 787-1060
gschaerr@schaerr-j affe .com

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 27, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~;.~ ~ J1 1 00d(
~tjL

Notary Public
[seal]

/q~

